OFFICE OF AUDIT
REGION VI
FORT WORTH, TX




           The Texas Department of Housing and
              Community Affairs, Austin, TX

       Did Not Always Comply with Neighborhood
          Stabilization Program Requirements




2012-FW-1013                                AUGUST 22, 2012
                                                        Issue Date: August 22, 2012

                                                        Audit Report Number: 2012-FW-1013




TO:            Shirley J. Henley
               Director, Office of Community Planning and Development, 6AD
               //signed//
FROM:          Gerald R. Kirkland
               Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT:       The Texas Department of Housing and Community Affairs, Austin, TX, Did Not
               Always Comply with Neighborhood Stabilization Program Requirements


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the Texas Department of Housing and
Community Affairs’ Neighborhood Stabilization Program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
817-978-9309.
                                         August 22, 2012

                                         The Texas Department of Housing and
                                         Community Affairs, Austin, TX, Did Not Always
                                         Comply with Neighborhood Stabilization
                                         Program Requirements

Highlights
Audit Report 2012-FW-0013


 What We Audited and Why                  What We Found

We audited the U. S. Department of       The Department improperly obligated $42,182. In
Housing and Urban Development            addition, it could not support more than $25 million in
(HUD) Neighborhood Stabilization         obligations made by the deadline and $8,767 in
Program (NSP1) administered by the       expenditures. Further, it did not report on its progress
Texas Department of Housing and          as required and did not appear to be on schedule to
Community Affairs. We selected the       spend funds within required timeframes. As a result,
Department based upon the large          the Department could not assure HUD that it properly
amount of NSP1 funding that it           managed its more than $101 million program.
received, more than $101 million. Our
objective was to determine whether the
Department complied with NSP1
requirements for obligations,
expenditures, program income,
monitoring, and reporting.

 What We Recommend

We recommend that the Fort Worth
Director of HUD’s Office of
Community Planning and Development
recapture $42,182 that the Department
obligated improperly, and require the
Department to provide support for more
than $25 million in unsupported
obligations and costs.
                           TABLE OF CONTENTS

Background and Objectives                                         3

Results of Audit
      Finding: The Department Did Not Always Comply with
               Neighborhood Stabilization Program Requirements    4

Scope and Methodology                                            17

Internal Controls                                                19

Appendixes
   A. Schedule of Questioned Costs                               21
   B. Auditee Comments and OIG’s Evaluation                      22




                                          2
                          BACKGROUND AND OBJECTIVE

Under the Housing and Economic Recovery Act of 2008, the U. S. Department of Housing and
Urban Development (HUD) distributed, through a prescribed formula, $3.92 billion in
Neighborhood Stabilization Program (NSP1) funds to States and local governments. While
NSP1 had similarities to existing HUD programs, it was a newly created program that required
recipients to create or modify procedures and systems to manage and comply with requirements.
On March 3, 2009, HUD awarded more than $101 million in NSP1 funds to the State of Texas. The
State was to use its NSP1 funds to assist in the rehabilitation of abandoned and foreclosed-upon
homes and residential properties.

The governor of Texas selected the Department of Housing and Community Affairs as the lead
agency for its $101 million program. The Department provides for the public service and
housing needs of low- to moderate-income families in Texas. The Department established a
multilevel approach for the distribution of the NSP1 funds to communities with the greatest need.
For the first level, it directly allocated $76.9 million to local governments and nonprofit agencies
in counties identified as having the greatest need. For the second level, the Department
competitively awarded $19.9 million to entities in counties with significant needs, referred to as
the “select pool” counties. 1 It entered into a memorandum of understanding with the Texas
Department of Rural Affairs, authorizing it to oversee the “select pool” activities. 2 However, as
lead agency, the Department maintained overall responsibility for the entire program.

NSP1 required the Department to obligate its funds within 18 months after HUD signed the grant
agreement on March 3, 2009. 3 The requirements defined obligations as when the Department
placed orders, awarded contracts, received services, and conducted similar transactions. 4 The
Department could not obligate funds simply by awarding NSP1 grants to its subrecipients. As
table 1 shows, the NSP1 also required the Department to spend its funds within 4 years. As of
May 29, 2012, the Department had drawn down only $52 million, which was about 52 percent of
its grant, although its grant period for expending the funds was 81 percent completed.

Table 1: Statutory deadlines for the Department’s NSP1 grant
                                   Date funds             Obligation deadline          Expenditure
       Grant number                 available                 set by HUD                 deadline
    B-08-DN-48-0001               March 3, 2009            September 3, 2010           March 2, 2013

Our objective was to determine whether the Department complied with NSP1 requirements for
obligations, expenditures, program income, monitoring, and reporting.




1
     The remaining $5.1 million was for administrative costs.
2
     This memorandum of understanding was for the period September 25, 2009, through August 31, 2011.
3
     Federal Register Docket Number FR-5255-N-01, section II.B
4
     Federal Register Docket Number FR-5255-N-01, section II.A

                                                      3
                                     RESULTS OF AUDIT


Finding: The Department Did Not Always Comply with Neighborhood
Stabilization Program Requirements
The Department did not adequately manage its NSP1 obligations by not maintaining sufficient
records to support obligations reported to HUD. Federal regulations required the Department to
establish and maintain sufficient records to support that it complied with requirements. 5 Based
on a review of a statistical sample of obligations, the Department did not have valid contracts or
other obligating documentation for $631,402 in reported obligations. Also, it entered into
agreements with subrecipients that did not complete their activities, resulting in $8,767 of
unsupported costs. Further, more than $24.7 million of its reported obligations did not match the
subrecipient agreements. In addition, the Department did not report its progress to HUD in a
timely manner as required and did not appear to be on track to spend funds by the statutory
deadline. These conditions occurred because the Department did not allocate enough resources
or establish the effective controls to operate its program. Therefore, the Department did not
effectively and efficiently implement its planned program and incurred questioned obligations
and costs totaling more than $25 million.


    The Department Could Not
    Support the Obligation
    Amounts That It Reported to
    HUD

                 The Department did not create and maintain adequate records to support
                 its meeting of the September 3, 2010, statutory obligation deadline. This
                 deficiency occurred because the Department did not allocate the staff and
                 resources necessary to establish the control environment to track and
                 monitor its NSP1 obligations as required by its grant agreement. 6 Further,
                 it could not effectively support its current obligations, which impaired its
                 ability to manage its program.

                 In accepting its NSP1 grant, dated March 3, 2009, the Department certified to
                 HUD that it would obligate its NSP1 funds within 18 months, or by the
                 September 3, 2010, deadline. HUD emphasized the importance to all NSP1
                 recipients of meeting this deadline so they would not need to return funds. On
                 September 4, 2010, the Department reported in HUD’s Disaster Recovery Grant




5
     24 CFR (Code of Federal Regulations) 570.506
6
     Ibid.

                                                    4
                Reporting (DRGR) system 7 that it had obligated 100 percent of its grant, thus
                meeting the obligation deadline.

                However, the Department did not establish systems and controls for the obligation
                of NSP1 funds, which significantly hindered its ability to support its reported
                obligations. In response to several requests for support of its September 4, 2010,
                reported obligations, the Department provided a spreadsheet, dated October 17,
                2011. It prepared the spreadsheet specifically for this audit using spreadsheets
                maintained by its program services division. 8 Department staff explained that the
                data in the program services’ spreadsheets included information through February
                2011, 5 months after the deadline. However, the Department could not
                substantiate the obligations it reported to HUD as meeting the September 3, 2010,
                deadline. Specifically, the Department could not provide a contemporaneously
                prepared or verifiable list of obligation amounts by specific NSP1 activities that
                equaled its obligations reported in the DRGR system.

                In attempting to draw an obligation sample, we compared the Department’s
                spreadsheet to the obligations it reported to HUD. 9 For 28 of 38 (74 percent)
                Department contracts, the amounts did not reconcile. As table 2 shows, the
                aggregate discrepancy between the Department’s records totaled more than $9.4
                million.

                Table 2: Aggregate discrepancy between obligations the Department reported to HUD and
                its October 17, 2011, spreadsheet supporting the reported amounts
                                              Reported in the          Department’s
                        Contract              DRGR system on            spreadsheet           Aggregate
                      comparison                09/04/2010               10/17/2011          discrepancy
                  17 overstated
                  contracts                           $30,098,073          $ 34,385,120         $ 4,287,047
                  11 understated
                  contracts                          (16,898,251)           (11,759,273)          5,138,978
                  Total of 28
                  incorrectly reported
                  contracts                           $13,199,822          $ 22,625,847         $ 9,426,025

                The Department was responsible for maintaining the information supporting what
                it reported to HUD through the DRGR system. The Department must reconcile
                its records and resolve the more than $9.4 million in aggregate discrepancies that
                its records showed. As further evidence that its records were inaccurate, table 3
                demonstrates the fluctuations in amounts the Department reported to HUD and

7
    HUD’s Office of Community Planning and Development designed the DRGR system for its Disaster Recovery
    program and other special appropriations. Grantees use the system to report their NSP1 obligations and
    expenditures. HUD uses data from the system to review activities and required reports.
8
    The Department provided the program services division’s source spreadsheets on January 19, 2012, 4 months
    after our initial request.
9
    This comparison did not include the Texas Department of Rural Affairs’ agreements.

                                                      5
                   the amounts it reported on its Web site for its June 30, 2010, quarterly
                   performance report, which it didn’t report until June 22, 2011, almost 1 year late.

                   Table 3: Fluctuations between amounts the Department reported in the DRGR system and
                   on its Web site for its June 30, 2010, quarterly performance report
                                                                              DRGR system          Department’s
                                                          DRGR system             as of             Web site on
                              Description                as of 10/31/2011      11/16/2011           11/21/2011
                    Total NSP1 funds budgeted                 $100,873,093         $84,569,796         $97,974,744
                    Program funds obligated                     25,864,303          24,986,774          25,864,303
                    National objective
                    NSP1 only –
                    25 percent set aside 10                    $65,369,757         $51,851,920         $62,524,020

                   None of the Department’s budgeted amounts equaled the grant amount of more
                   than $101 million as they should have. In discussions, Department staff attributed
                   the discrepancies to the DRGR system. However, the DRGR system served as a
                   repository for information that the Department submitted, and HUD used to
                   monitor the Department’s program. 11 Therefore, the Department was responsible
                   for allocating the resources to accurately record information into the system.

     The Department Did Not
     Obligate NSP1 Grant Funds by
     the Obligation Deadline

                   The Department could not support that it obligated all NSP1 grant funds within 18
                   months of the grant award as required. 12 For 20 of 56 (36 percent) grant activities
                   reviewed, the Department incorrectly reported in the DRGR system that it met its
                   obligation deadline for the grant funds awarded. 13 For 3 of the 20 activities, it
                   reported that it obligated $42,182, although there were no executed agreements
                   obligating the funds. For the remaining 17 activities, the Department’s system did
                   not contain documentation to support $589,220 in obligations. 14 This condition
                   occurred because the Department did not effectively manage its NSP1
                   obligations. It did not allocate sufficient staff to implement policies and
                   procedures for processing obligations. As a result, it did not ensure that its
                   subrecipients entered into agreements that clearly obligated the funds by
                   September 3, 2010.

10
      Federal Register Docket Number FR-5255-N-01, section II.E, required that the Department spend 25 percent of
      the funds for the purchase and redevelopment of abandoned or foreclosed-upon residential properties to be used
      to house individuals or families whose incomes did not exceed 50 percent of area median income.
11
      HUD reviewed the DRGR system to analyze risk and find anomalies or performance problems that suggested
      fraud, waste, or abuse of funds. HUD reconciled budgets, obligations, fund draws, and expenditures to the
      DRGR system.
12
      Federal Register Docket Number FR-5255-N-01, section II.B
13
      The Department certified that it would obligate the $101 million NSP1 grant amount by September 3, 2010.
14
      For example, some subrecipients did not date the signatures on the documents supporting the obligations.

                                                          6
                    Further, the Department did not establish and maintain a system for recording
                    NSP1 obligations as required. 15 As a result, it could not provide a reliable list of
                    obligations. The 56 sample grant activities were selected from records that the
                    Department and the Texas Department of Rural Affairs provided. 16 The Texas
                    Department of Rural Affairs provided several spreadsheets showing obligations
                    for “select pool” subrecipients, which it prepared about September 3, 2010, when
                    it entered obligations into the DRGR system. For the remaining obligations, the
                    Department used various sources and took more than a year after the obligation
                    deadline to create a spreadsheet that listed the obligations. The Department did
                    not maintain an accurate obligation record, as more than half of the 56 samples
                    did not match the obligations reported in its housing contract system. In total, its
                    system underreported the sample amount for 34 activities (61 percent) by more
                    than $4.8 million.17 The sample listing contained 25 activities that exceeded its
                    system’s obligations and 9 activities for which the listed obligations were less
                    than those reported in its system. 18 This condition occurred because the
                    Department did not have effective systems for reconciling its obligating
                    documents to its system and correcting discrepancies. As a result, it could not
                    support that it obligated its funds by September 3, 2010.

     The Department Deobligated
     More Than $21 Million for
     Activities That It Could Not
     Complete

                    Of 44 subrecipients, 15 (34 percent) did not complete the planned activities for 24
                    of 58 (41 percent) grant agreements. This condition occurred because the
                    Department lacked systems and controls for selecting and helping subrecipients
                    complete grant activities within guidelines. 19 As a result, the Department
                    deobligated more than $21 million for activities that it could not complete. 20 The
                    deobligations appear to show that the Department was more interested in meeting
                    the obligation deadline than obligating funds for activities that it could complete.
                    The deobligations may deter its ability to spend funds by March 2, 2013, as
                    required. Table 4 is a summary of deobligated agreements.




15
       Under 24 CFR 570.506, the Department was required to maintain a historical record of funds obligated to meet
       the deadline.
16
       The Department managed 43, and the Texas Department of Rural Affairs oversaw the remaining 13.
17
       The sample amount showed total obligations of $35.3 million, while the Department’s system reported a total of
       $30.4 million. The Department had taken one sample item in the amount of $106,315 out of its housing
       contract system. As a result, we did not compare that sample amount to the system.
18
       The total absolute variance was more than $5.3 million.
19
       Common business practice would require the Department to select only those subrecipients that could complete
       the proposed work while complying with Federal regulations.
20
       HUD had not deobligated those funds from the Department’s award.

                                                           7
                 Table 4: Funds deobligated by the Department from its subrecipients
                                                                       Funds drawn
                          Reason for                Number of         down for lapsed         Amount
                        deobligations               agreements           contracts          deobligated
                   Agreement terminated                  9                   $ 41,621        $11,597,964
                   Agreement expired                    11                    801,070          6,189,830
                   Amended agreement
                   reduced the amount                        4                                3,595,891
                   Totals                                   24              $842,691        $21,383,685

                 The Department deobligated more than $12.3 of the $101 million that HUD
                 awarded (12 percent) within 27 days following the September 3, 2010, obligation
                 deadline. On September 4, 2010, the Department reported in the DRGR system
                 that it had obligated all the awarded funds. However, its quarterly performance
                 report for the quarter ended September 30, 2010, 26 days later, 21 showed
                 obligations of only $89.6 million. The Department explained that there are many
                 fluctuations in real estate transactions and the amounts obligated were only
                 estimates that changed upon closing. It also explained that there was no existing
                 requirement that the Department maintain its obligations after the obligation
                 deadline. However, this did not clearly explain what happened to the reported
                 obligations in such a short time period. The $12.3 million in deobligated funds
                 are shown in the following table.

                 Table 5: Funds deobligated in 26 days following the obligation reporting

                                Type of activity                          NSP1 funds deobligated
                   Renovations-new construction                                        ($9,466,215)
                   Land banks                                                           (2,874,858)
                   Acquisitions                                                           1,024,762
                   Administrative fees (about 8%)                                         (955,464)
                   Demolitions                                                            (143,839)
                   Rehabilitation                                                            28,809
                   Total                                                              ($12,386,805)

                 HUD regulations specified the documents the Department must have when it
                 obligated NSP1 funds. 22 Those documents had to be signed and dated. For
                 instance, under NSP1 the Department could report an obligation when;

                      •   a subrecipient had a signed purchase offer accepted by the seller for an
                          acquisition of real property,




21
     The Department did not submit this report until November 15, 2011.
22
     NSP Policy Alert dated April 23, 2010

                                                        8
                       •   a subrecipient had either a construction contract or other action that was
                           legally binding for rehabilitation of property owned by the subrecipient,

                       •   a subrecipient awarded a construction contract for new housing
                           construction on vacant or demolished property, or

                       •   a subrecipient awarded a demolition contract for a specific property.

                  All of the required documents mentioned above were legally binding to a
                  subrecipient. Thus, it was unclear why the amounts obligated for these
                  transactions would change so much and often during the short time period without
                  the activities being completed or written amendments to the documents.

                  Before the Department deobligated NSP1 funds from the remaining balances of
                  two subrecipient agreements, it paid the subrecipients for questionable costs. As a
                  result, the Department spent $8,767 on unsupported payroll and administrative
                  costs for those agreements that it cancelled.

                       •   Unsupported Payroll Costs
                           Timesheets did not reflect total activity required in fulfillment of the
                           employees’ responsibilities to the subrecipients, and there was nothing to
                           indicate that the employees only worked on NSP1 activities. As a result,
                           employees did not report their total activities as required. 23

                       •   Unsupported Administrative Costs
                           Two subrecipients charged indirect costs to NSP1 based on a calculated
                           percentage. When using the direct allocation method for allocating
                           indirect costs under 2 CFR 230, subrecipients were required to prorate
                           costs individually as direct costs to each activity using a base most
                           appropriate to the particular cost being prorated. The base used must
                           accurately measure the benefits provided to each activity and must be
                           supported by current data. However, the Department’s housing contract
                           system did not have documentation to support that its subrecipients
                           complied with the regulations. Further, in one instance, a subrecipient did
                           not have a hotel receipt supporting more than $300.

     The Department’s Subrecipient
     Agreements Did Not Support
     the Obligations

                  As previously noted, the Department did not maintain adequate records to support
                  its September 3, 2010, obligations. In an attempt to determine which, if any,
                  funds were not properly obligated by September 3, 2010, we compared the

23
      Under 2 CFR 230, each time report account for the total activity for which employees were compensated. The
      time report must show the total time required in fulfillment of their obligations to the organization.

                                                         9
                  obligations reported in the DRGR system to the individual subrecipient and
                  developer agreements that were effective on that day. The agreements would help
                  the Department ensure that it spent funds in accordance with program
                  requirements. 24 However, the agreements did not support the obligations reported
                  in the DRGR system and the Department could not reconcile the differences.

                  For instance, of the 58 obligations reported, 38 did not agree with the amounts in
                  the subrecipient grant agreements. Ten agreements, 17 percent, were for less, and
                  28 agreements, 48 percent, were for more than the reported obligations. In
                  addition, the Department entered into a developer agreement that it did not report.
                  The aggregate amount of the obligation differences totaled more than $24.7
                  million, which was unsupported.

                  Chart 1: Thirty-eight agreements had different amounts than reported in DRGR


                                           Subrecipient and Developer
                                                  Agreements
                                                                            10 reported less than the
                                                 17%                        obligations in the DRGR system
                                       35%
                                                                            28 reported more than the
                                                                            obligations in the DRGR system
                                                  48%                       20 equaled the obligations
                                                                            reported in the DRGR system




                  To worsen the situation, 22 of the 58 agreements showed that planned grant
                  activities did not match the obligated activities. These differences gave the
                  appearance that the Department did not know what activities it was going to
                  pursue.

                  The variances occurred because the Department did not allocate the staff and
                  resources necessary to create systems and controls for processing, tracking, and
                  reconciling obligations. As a result, it did not ensure that its grant agreements
                  matched the obligation information it reported. Since the agreements differed
                  from the information submitted to HUD, the Department could not effectively
                  monitor its performance under the submitted plans 25 or support that it met the
                  obligation deadline.


24
     24 CFR 570.501(b)
25
     Before the Department gave funds to its subrecipients, 24 CFR 570.503 required that the Department enter into
     subrecipient agreements with its subrecipients. The agreements were required to include a detailed description
     of the planned work, a schedule for completing the work, and a budget. The subrecipients were also required to
     provide adequate information for the Department to monitor performance under the agreements.

                                                        10
                   HUD cautioned grantees that adequate subrecipient agreements, which are
                   “required,” are “essential management tools” for measuring the subrecipients’
                   performance and “verifying regulatory compliance.” HUD explained that the
                   Department should amend its written agreement when there was an unwritten
                   agreement to change the scope of work. “Neglecting to amend” an agreement
                   places the Department “at risk” because the “agreement is no longer an effective
                   tool for monitoring and enforcing performance standards.” For agreements that
                   have more activities than obligated, the agreement “may continue to legally bind”
                   the subrecipient to the activities that both parties agreed were no longer a
                   responsibility of the subrecipient. According to the guidance, “[c]larifying or
                   correcting these misunderstandings after the fact can be both disruptive and
                   costly.” 26 Since the Department did not amend its 38 agreements, it could not
                   support $24.7 million obligated.

     The Department Did Not
     Report on Its Progress as
     Required

                   The Department did not report its progress toward meeting its NSP1 goals as
                   required. HUD required the Department to submit quarterly performance reports
                   using its DRGR system within 30 days following the end of each quarter. It also
                   required the Department to post prominently the quarterly performance report on
                   the State’s official Web site at the time of submission. 27 As table 6 shows, only 2
                   of the Department’s 12 quarterly performance reports met the reporting
                   requirement.

                   Table 6: Status of required quarterly performance report submissions as of July 12, 2012
                                       Quarterly                         Date       Number    Report
                                      performance                     submitted     of days submitted
                        Status           report         Due date       to HUD         late   on time?
                      Submitted        06/30/2009      07/30/2009     07/28/2009           0   Yes
                        timely
                      (2 reports)       03/31/2012     04/30/2012     04/26/2012            0       Yes
                                        09/30/2009     10/30/2009     11/12/2009           13       No
                                        12/31/2009     01/30/2010     02/02/2010            3       No
                    Submitted late      03/31/2010     04/30/2010     06/11/2010           42       No
                     (10 reports)       06/30/2010     07/30/2010     06/22/2011          327       No
                                        09/30/2010     10/30/2010     11/15/2011          381       No
                                        12/31/2010     01/30/2011     11/22/2011          296       No
                                        03/31/2011     04/30/2011     01/17/2012          262       No
                                        06/30/2011     07/30/2011     03/19/2012          233       No
                                        09/30/2011     10/30/2011     03/28/2012          150       No
                                        12/31/2011     01/30/2012     04/03/2012           64       No


26
       Managing CDBG: A Guidebook for Grantees on Subrecipient Oversight
27
       Federal Register Docket Number FR-5255-N-01, section II.O

                                                      11
                  The Department submitted acceptable June and September 2010, quarterly
                  performance reports nearly 1 year late. However, it did not maintain records or
                  implement a system for summarizing its progress. This condition occurred
                  because the Department did not effectively plan to manage its NSP1 by
                  implementing systems to properly record obligations thereby allowing it to
                  accurately report its performance to HUD in a timely manner. It did not assign
                  enough staff members to run the program and it did not adequately prioritize the
                  requirement for accurate and timely reporting of results. As a result, the NSP1
                  manager submitted the quarterly performance reports whenever time allowed.
                  The September 2010 quarterly performance report would have informed the
                  public of the Department’s obligation status.

                  The Department did not report its obligations to HUD monthly as it should have.
                  HUD required grantees that were not 100 percent obligated by June 30, 2010, to
                  report monthly on their progress. 28 Specifically, HUD required the Department to
                  submit monthly reports until HUD accepted a report demonstrating 100 percent
                  obligation. The Department’s September 2010 quarterly performance report
                  established obligations as of the obligation deadline. However, the Department
                  did not submit the September 2010 quarterly performance report until November
                  15, 2011. Therefore, the Department should have submitted monthly reports on
                  its obligations from June 30, 2010, through October 30, 2011.

                  In addition, the Department could not support that it met its performance goals
                  that it reported in the DRGR system. The Department’s housing contract system
                  showed detailed information on each grant activity. However, it did not
                  summarize the information for easy reporting. Additionally, the Department did
                  not have a system for reconciling its data with the DRGR system; thus, it did not
                  reconcile its actual activities shown in its housing contract system to the activities
                  that it reported in the DRGR system. As a result, it did not have readily available
                  records to support that it met its performance goals, including the requirement to
                  spend at least 25 percent of its funds to benefit individuals and families whose
                  incomes did not exceed 50 percent of the area median income. The Department
                  also did not have records to show that its subrecipients met their milestones and
                  thresholds as required by their grant agreements.

                  In August 2011, the Department implemented policies and procedures for
                  monitoring subrecipient progress toward meeting program goals, and it had
                  created a database to track subrecipient performance as of January 31, 2012. 29
                  However, it had not implemented policies and procedures for summarizing its
                  total progress. HUD required the Department to meet grant performance goals for
                  several years after expending grant funds. If the Department does not keep


28
     Federal Register Docket Number FR-5255-N-01, section II.O.1(b)(i). HUD awarded the funds on March 3,
     2009. The end of the 15th month following that date was June 30, 2010.
29
     Since the Department had just begun using the database, we did not review the system’s effectiveness for
     tracking performance measures.

                                                       12
                  records supporting its accomplishments, HUD has no assurance that the
                  Department will comply with these requirements.

                  In addition, the Department’s program division did not have written procedures
                  for tracking and reporting program income. According to the NSP1 manager, the
                  Department had unwritten procedures. When the financial administration division
                  received program income, it notified program staff by email. After receiving
                  notification, one loan specialist entered the information into the DRGR system;
                  another entered the information into the Department’s system. According to
                  management, staff continually reconciled the entries. Without formalized
                  program income policies and procedures, the Department could not support that it
                  tracked program income as required.

     The Department Had
     Incomplete Guidelines To
     Verify Eligibility

                  The Department’s policies and procedures for verifying tenant and homeowner
                  eligibility before approving draw requests for homeowner loans were incomplete.
                  Also, the procedures did not have a timeline for the quality assurance staff to
                  complete their reviews. According to management, properties were set up in the
                  Department’s system to comply with the area median income requirements. The
                  subrecipients set up activities in the system, and the specialists reviewed and
                  approved the activity setups. As a result, specialists needed to confirm that each
                  property met its eligibility requirements and quality assurance staff did a second
                  review before requesting NSP1 funds for homebuyer loans. Without clear written
                  procedures for processing setups and draws, the Department may not be able to
                  ensure that its staff understand the requirements and that its subrecipients have the
                  resources necessary to complete their grant activities in a timely manner.

     The Department Was Not on
     Track To Spend Funds in a
     Timely Manner

                  Based on the expended funds and progress as of May 29, 2012, the Department
                  did not appear to be spending its NSP1 funds in a timely manner. Federal
                  regulations 30 required that the Department spend the total funds awarded within 4
                  years, or by March 2, 2013. 31 HUD would recapture all funds not expended by
                  that date. Although it was 3.2 years (81 percent) through the grant, the
                  Department had spent only $52 million (52 percent) of its grant funds. The
                  Department put itself at risk of not spending the grant funds on time when it
                  selected subrecipients that did not have the capacity to administer the program
                  activities. At least 34 percent of the subrecipients either did not have the capacity
30
      Federal Register Docket Number FR-5255-N-01, section II.M.2
31
      The 4-year expenditure period began on March 3, 2009, when HUD signed the State’s NSP1 grant agreement.

                                                       13
             or were not willing to complete their NSP1 activities. This problem caused the
             Department to deobligate at least $21 million. As table 7 shows, the Department
             had obligated only $84 of the $101 million grant (approximately 83 percent) as of
             May 29, 2012.
             Table 7: The Department’s total drawdowns for NSP1 activities as of May 29, 2012
                                                                                        Activity
                                                                       Funds           percentage
                         Activity                    Obligated      drawn down         completed
              Acquisition – multifamily
              properties                             $21,154,879      $20,288,081               96%
              Land banks                               8,362,291        6,531,276               78%
              Demolition                               2,433,838        1,666,694               68%
              Acquisition – single-family             14,640,381       10,348,427               71%
              properties
              Financing                                  995,566          413,482               42%
              Administrative fees                      8,220,142        4,898,421               60%
              Rehabilitation or
              reconstruction – multifamily             8,636,639        3,368,867               39%
              properties
              New construction or
              rehabilitation – single-family          20,158,340        5,357,223               27%
              properties
              Totals                                 $84,602,076      $52,872,471

             Although the Department seemed to be completing the purchase of properties for
             multifamily residences and land banks in a timely manner, it was not progressing
             as well on the other activities. For example, the Department was slow to
             complete its acquisition, new construction, and rehabilitation goals for single
             family homes. It had spent only $15 of $34 million (approximately 45 percent)
             obligated for those activities. In another example, the City of Huntsville did not
             appear to be able to complete its activities. As of May 24, 2012, Huntsville had
             drawn down only $155,490 (10 percent) of its $1.5 million in obligated funds.
             Funds were not drawn down in a timely manner because there seemed to be
             delays in receiving guidance to carry out the programs, entering information into
             the system, getting timely approvals to carry out program activities, and obtaining
             funds for expenses. The Department’s inability to use its funds could make funds
             unavailable for capable entities that could complete viable NSP1 activities.

Conclusion

             The Department did not always follow requirements when obligating and
             reporting on its NSP1 funds. It did not keep reliable records to support that it met
             the statutory obligation deadline. The Department obligated $42,182 without
             valid agreements and $589,220 without complete obligating documents. In

                                                14
                   addition, the Department entered into grant agreements with subrecipients that
                   could not complete their NSP1 activities, resulting in $8,767 in unsupported
                   expenditures. Also, it entered into subrecipient grant agreements that were not the
                   same as the obligations reported in the DRGR system. The aggregate amount of
                   the obligation differences totaled more than $24.7 million. Further, the
                   Department needs to strengthen its written policies and procedures for program
                   specialists and quality assurance staff during the homebuyer loan process. Also,
                   the Department did not appear to be spending its NSP1 funds in a timely manner.
                   As a result, it did not carry out its activities as planned and could not adequately
                   monitor the activities that it reported to HUD. In addition, the Department did not
                   report on its progress as required. This condition occurred because the
                   Department did not allocate sufficient staff and resources to implement adequate
                   policies and procedures for its NSP1 obligations, thereby putting the program at
                   risk of misappropriated funds.

     Recommendations

                   We recommend that the Fort Worth Director of the Office of Community
                   Planning and Development

                   1A. Recapture and reallocate $42,182 in ineligible obligations and require the
                       Department to reimburse HUD from non-Federal funds for any NSP1
                       proceeds spent on these obligations. 32

                   1B. Require the Department to support that $589,220 in obligations existed as of
                       September 3, 2010, or repay HUD for funds drawn down. The Director
                       should take additional corrective action as appropriate. 33 These were
                       obligations that we reviewed for which the Department’s system did not
                       have the required obligating documents.

                   1C. Require the Department to provide documentation to support $8,767 in
                       unsupported costs or repay any unsupported amounts to HUD.

                   1D. Require the Department to support that $24.7 million in obligations existed
                       as of September 3, 2010, or repay HUD for funds drawn down. Further, the
                       Director should take additional corrective action as appropriate. 34 These
                       were developer and subrecipient agreements that did not agree with the
                       amounts and activities the Department obligated in the DRGR system.




32
      According to Federal Register Volume 75, Number 201, section I.B.2, HUD is required to recapture and
      reallocate up to $19.6 million in improper obligations. HUD may take other corrective action for funds in
      excess of $19.6 million.
33
      Ibid.
34
      Ibid.

                                                          15
                 1E. Require the Department to implement adequate procedures and controls

                      •   For processing, documenting, tracking, and reconciling its obligations to
                          its subrecipient grant agreements and information reported to HUD and
                          tracking and reporting its program income.

                      •   For selecting subrecipients that have the capacity to complete grant
                          programs.

                      •   For tracking its progress toward meeting its NSP1 performance goals and
                          completing and submitting quarterly performance reports to the DRGR
                          system so that HUD knows the program’s status.

                 1F. Require the Department to revise its standard operating procedures for its
                     performance specialists and quality assurance staff to ensure loans and
                     drawdowns are processed in a timely manner and to clearly explain the
                     procedures for approving homebuyer activities for loans and drawdowns.
                     The procedures should include the types of supporting documentation that
                     must be reviewed, incorporating the NSP Homebuyer Workbook, 35 and
                     clarifying what checklist(s) will be used and when to determine eligibility.
                     The procedures for quality assurance staff should include a timeline for
                     completing the review.

                 1G. Monitor the Department’s progress toward meeting its March 2, 2013,
                     expenditure deadline and follow up on any delays.




35
     According to the Department, subrecipients submit this workbook, along with source documentation, when
     sending household information to the Department for review and approval.

                                                      16
                              SCOPE AND METHODOLOGY

We performed our fieldwork at the Department’s office located in Austin, TX, and our office in
Oklahoma City, OK, from July 2011 through May 2012. Our audit scope was January 2009
through July 2011. We expanded our scope to July 12, 2012, for DRGR system reporting
progress and May 29, 2012, for expenditure progress.

To accomplish our objectives, we performed the following related to the Department’s NSP1
grant funds:

     •   Reviewed relevant laws, regulations, and HUD guidance;
     •   Reviewed the Department’s policies and procedures;
     •   Reviewed and analyzed the Department’s NSP1 grant agreement and the State’s
         substantial amendment to its annual action plan for Federal fiscal year 2008;
     •   Reviewed internal audit reports and the February 15, 2011, NSP1 needs assessment
         report prepared by Training and Development Associates, an independent contractor for
         HUD;
     •   Reviewed the Department’s monitoring reports of its subrecipients and the Texas
         Department of Rural Affairs;
     •   Reviewed the expenditures of 10 subrecipient grant agreements that either expired or
         were terminated;
     •   Reviewed 35 percent of the Department’s NSP1 obligations as of September 3, 2010, to
         ensure that the Authority met its obligation requirements;
     •   Reviewed 13 NSP1 expenditures to determine whether the Department met expenditure
         requirements;
     •   Reviewed the status of the Department’s NSP1 quarterly performance reports as of
         November 1, 2011, and the April 2011 annual Section 3 reports 36 for timely reporting;
     •   Interviewed HUD, Department, and Texas Department of Rural Affairs staff and NSP1
         subrecipients; and
     •   Conducted 26 site visits to properties (5 multifamily properties and 21 single family
         homes) financed with NSP1 funds.

For the obligation sample review of approximately $75 million in obligations directly overseen
by the Department, we used a spreadsheet prepared by the Department more than 1 year
following the obligations. The spreadsheet apparently showed the obligations, listed by
subrecipient grant activity, which existed as of September 3, 2010, the obligation deadline. For
the approximate $19 million in obligations initially administered by the Texas Department of
Rural Affairs, we used spreadsheets prepared by its staff when it entered the September 3, 2010,
obligations into the DRGR system. Using the spreadsheets, we identified and reviewed a
statistical sample of 56 activities. The sample amount was more than $35.3 million. The sample
universe included 1,430 activities that totaled more than $93.7 million. These activities

36
     The Department certified that it would submit Section 3 reports to HUD showing that, to the greatest extent
     feasible, it provided job training, employment, and contracting opportunities for low- or very-low income
     residents in connection with projects and activities in their neighborhoods.

                                                         17
consisted of 1,203 activities administered by the Department and 227 activities initially
administered by the Texas Department of Rural Affairs. Twenty-one activities, involving 4
subrecipient grant agreements, were not included in the universe because the information
provided by the Department designated them as “cancelled.” The spreadsheet that the
Department prepared was not reliable. There were many discrepancies between the contract
amounts and activities shown on the spreadsheet and those shown in the DRGR system. As a
result, we did not project the results of the review.

We selected a nonstatistical, representative sample of 52 of the Department’s 1,136 NSP1
administrative draws and expenditures. The 52 samples, valued at almost $1 million, represented
almost 3 percent of the more than $37 million in administrative draws and expenditures. For the
survey, we tested 13 of the 52 expenditures with no exceptions. As a result, we did not review
the remaining 39. We used a nonstatistical sample because we were evaluating whether the
Department kept documentation that supported its expenditures and we were not projecting the
results.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                              18
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •      Policies and procedures that the Department’s management had
                      implemented to ensure that its program met its objectives.
               •      Policies and procedures that the Department’s management had
                      implemented to ensure that its subrecipients and developers complied with
                      laws and regulations.
               •      Policies and procedures that the Department’s management had
                      implemented to ensure that its resource use was consistent with laws and
                      regulations and that its resources were safeguarded against waste, loss, and
                      misuse.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 19
Significant Deficiencies

             Based on our review, we believe that the following items are significant deficiencies:

             •      The Department did not establish systems and controls for processing,
                    documenting, tracking, and reconciling its obligations to its subrecipient
                    grant agreements and information reported to HUD (finding).
             •      The Department did not establish systems and controls for tracking and
                    reporting its program income (finding).
             •      The Department did not establish systems and controls for selecting
                    subrecipients that had the capacity to complete its NSP1 activities
                    (finding).
             •      The Department did not have a system in place to ensure that it had adequate
                    staff to oversee its NSP1 activities and its subrecipients (finding).
             •      The Department did not implement policies and procedures for its
                    program specialists to verify tenant or homeowner eligibility before
                    approving NSP1 draws (finding).




                                              20
                                             APPENDIXES

Appendix A

                       SCHEDULE OF QUESTIONED COSTS

                        Recommendation                  Ineligible 1/        Unsupported 2/
                               number
                                          1A                 $42,182
                                          1B                                   $   589,220
                                          1C                                         8,767
                                          1D                                    24,706,604

                                     Totals                  $42,182           $25,304,591 37




1/       Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
         that the auditor believes are not allowable by law; contract; or Federal, State, or local
         policies or regulations.

2/       Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
         or activity when we cannot determine eligibility at the time of the audit. Unsupported
         costs require a decision by HUD program officials. This decision, in addition to
         obtaining supporting documentation, might involve a legal interpretation or clarification
         of departmental policies and procedures.




37
     According to Federal Register Volume 75, Number 201, HUD is required to recapture and reallocate up to
     $19.6 million in improper obligations. HUD may take additional corrective actions related to any amount of
     unused funds greater than $19.6 million.

                                                        21
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         22
Comment 2




Comment 3
Comment 2



Comment 4
Comment 2




            23
Comment5
Comment 2


Comment2




Comment 6




            24
Comment 7




Comment 8




Comment 9




Comment 10




             25
Comment 11




Comment 12




Comment 13




             26
Comment 14



Comment 15



Comment 16



Comment 17




Comment 18




Comment 19




             27
Comment 20




Comment 21




             28
Comment 6




            29
30
31
32
                        OIG Evaluation of Auditee Comments

Comment 1   The Department questioned some of the language in the draft report as being
            emotionally charged and pointed; but, it did not provide any specific examples.
            We made several revisions to the report language to attempt to address the
            Department’s concern.

Comment 2   The Department provided an expanded response in its Addendum One. We
            address these comments there.

Comment 3   The comment that HUD does not require grantees to keep the same obligations
            throughout the NSP1 grant period is valid. However, this was not an issue raised
            in the draft report. HUD required the Department to have valid obligations for
            its more than $101 million award by September 3, 2010. The report concluded
            that the Department did not have adequate support for its September 3, 2010,
            obligations. It also concluded that the September 3, 2010, obligations entered
            into the DRGR system did not match obligations that existed on that date. We
            provided clarification in the finding.

Comment 4   As discussed in the report, the Department did not maintain records or
            implement a system for summarizing its progress and reconciling its obligations
            to the DRGR system. HUD required the Department to establish and maintain
            sufficient records to enable HUD to determine whether it complied with
            applicable requirements.

Comment 5   The Department acknowledged that it was responsible for all of the NSP1 funds
            awarded. In October 2011, more than a year after the obligation deadline, the
            Department notified HUD that it had improperly obligated funds at
            September 3, 2010. If it had implemented a system for tracking and reconciling
            the obligations reported in the DRGR system, it would have identified 'contracts
            of concern' earlier in the process before it entered them as valid obligations in
            the DRGR system.

Comment 6   We appreciate the Department providing additional information and
            clarification. After reevaluation of the evidence, we removed the draft finding
            from the report.

Comment 7   We did not dispute the definition of an “obligation.” The Department was
            responsible for supporting the obligations it reported to HUD at the
            September 3, 2010, obligation deadline. However, as detailed throughout the
            finding, the Department’s records were inaccurate and it could not support or
            reconcile the obligations it reported to HUD on September 4, 2010. To date, the
            Department has still been unable to support those obligations in summary form
            or otherwise. We maintain our position.




                                           33
Comment 8        We prepared the spreadsheet from information provided by the Department.
                 Based on the Department’s comments, we clarified and made changes as
                 appropriate to the finding.

Comment 9        The Department acknowledged that it entered into 38 written agreements with its
                 subrecipients that did not total the amounts in the subrecipient grant agreements,
                 28 of which exceeded the obligations. The Department entered actual
                 obligations into the DRGR system as of September 3, 2010. However, its grant
                 agreements and contracts with its subrecipients and developers for the same
                 period were not for the same activities and amounts as those reported in the
                 DRGR system. Even though the Department entered into 14 of the 38
                 agreements between 6 months and 1 year before the September 3, 2010,
                 obligation deadline, it entered into 11 agreements within 5 months before the
                 deadline and the remaining 13 agreements within 1 to 2 months before the
                 deadline. The Department did not amend any of the agreements to match the
                 actual obligations entered into the DRGR system.

                 This caused fluctuations between the agreements and information in the DRGR
                 system. The Department did not keep records to show where the fluctuations
                 existed. If it had been properly managing its NSP1, its records would have
                 shown what changed in the obligations and how the changes reconciled to the
                 DRGR system.

                 Under the written agreements, the Department was bound to spend NSP1 funds
                 for the activities and amounts included in the agreements. As a result, it
                 obligated funds that were not available when it entered into subrecipient
                 agreements that exceeded the obligated funds reported in the DRGR system. We
                 did not revise the finding based on the Department’s comment.

Comment 10 The Department agreed that it made errors when it entered obligation
           information into the DRGR system. If it had a system in place that reconciled
           the obligations in the subrecipient agreements to the obligations reported in its
           housing contract system and the DRGR system it could have identified the
           discrepancies earlier in the process.

                 The regulations 38 required that the Department enter into a written agreement
                 with each subrecipient before disbursing HUD funds. The agreement must
                 remain in effect during the time that the subrecipient has control over the funds.
                 The written agreement must include a description of the work to be performed, a
                 schedule for completing the work, and a budget. The information should be in
                 sufficient detail to provide a sound basis for the Department to effectively
                 monitor performance under the agreement. NSP1 regulations required additional
                 documents to obligate funds, such as purchase offers and construction contracts.
                 In response to the Department's comments, we made no changes to the report.
38
     24 CFR 570.503

                                                34
Comment 11 The Department was responsible for maintaining the information it reported to
           HUD through the DRGR system. HUD required the Department to submit its
           June 30, 2010, quarterly performance report on July 30, 2010. As table 3 of the
           report showed, over a 22-day period 39 between October 31, 2011, and
           November 21, 2011, the amounts the Department reported to HUD fluctuated
           significantly. These significant fluctuations over such a short timeframe, along
           with the Department submitting the reports more than a year after they were due,
           further support the conclusion that the Department did not have adequate
           controls over its obligations.

Comment 12 Obligated NSP1 funds should have appropriate supporting documentation for
           both total obligations and individual activities. As required in the grant
           agreement, funds would be obligated no later than September 3, 2010. Further,
           the Department agreed that funds were obligated for an activity when orders
           were placed, contracts were awarded, services were received, and similar
           transactions had occurred that required payment by the Department or
           subrecipient during the same or a future period. The Department could not
           obligate funds into the DRGR system for an activity when it entered into
           subawards (e.g., grants to subrecipients or to units of local government).
           Therefore, as stated in the report, we tested sample activities the Department
           recorded as obligated by the deadline and concluded that the Department’s
           system of record did not contain supporting documentation for its obligations.

                   HUD required the Department to establish and maintain sufficient records to
                   enable HUD to determine whether it complied with applicable requirements. 40
                   The Department should record accurate obligation amounts in its system of
                   record, which should also reconcile with the DRGR system. Therefore, it is
                   necessary for the Department to track and record changes as needed in a timely
                   manner in its housing contract system to ensure that a valid obligation exists.
                   Further, the tracking of obligations and subsequent expenditures assists the
                   Department in monitoring subrecipients’ progress and should improve its ability
                   to administer the grant.

Comment 13 We clarified the criteria in the finding.

Comment 14 We added clarification in the finding.

Comment 15 The Department did not provide support for the $6,425 in costs.

Comment 16 We updated the finding to include information provided by the Department in its
           comments and verified in the DRGR system. We also updated table 6 to reflect
           the Department’s submission of its late quarterly performance reports. However,
           we did not test the accuracy of the information reported in these submissions.

39
     This was more than 15 months after the quarterly performance report due date.
40
     24 CFR 570.506

                                                        35
Comment 17 Monthly reporting submissions were not required for grantees for which HUD
           had accepted a quarterly performance report that reflected that it had met the 100
           percent obligation requirement. The Department’s reporting was late and when
           the monthly reporting requirement began, it did not have a HUD-approved
           quarterly performance report showing that it had obligated 100 percent of its
           grant funds. We made clarifying changes, as needed, to the finding.

Comment 18 We disagree that there was little performance activity during the audit. All
           NSP1 activities were essential to completing the program as planned. Thus, the
           acquisition, land banking, demolition, renovation, and construction activities
           were all necessary. HUD required the Department to establish and maintain
           sufficient records to enable HUD to determine whether it complied with
           applicable requirements. 41 The Department should capture the entire population
           in a single system or report to identify the information needed by HUD to
           monitor the program. We did not change the finding based on the comments.

Comment 19 The Department needs to show that it spent funds as budgeted and obligated. It
           should implement a system for tracking its overall progress towards meeting the
           25 percent setaside requirement as budgeted. We did not change the finding
           based on the Department’s comments.

Comment 20 We made changes, as appropriate, to the finding. After the Department provided
           the NSP Homebuyer Workbook, we recommended that it incorporate the
           workbook into its standard operating procedures.

Comment 21 While we based the audit analysis on the reported drawdowns shown in the
           DRGR system, the Department did not submit documentation with its response
           to show that it had spent more than the $52 million discussed in the report. We
           did not change the finding based on the Department’s response.




41
     24 CFR 570.506

                                             36
